Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




COMPARISON OF AVERAGE SALES
    PRICES AND AVERAGE
   MANUFACTURER PRICES:
    AN OVERVIEW OF 2008




                    Daniel R. Levinson
                     Inspector General

                      February 2010
                     OEI-03-09-00350
          E X E C U T I V E                         S U M M A R Y


                  OBJECTIVES
                  1. To identify drugs with average sales prices (ASP) that exceeded
                     average manufacturer prices (AMP) by at least 5 percent in any
                     quarter of 2008.

                  2. To determine why ASPs for certain drug products exceeded the
                     AMPs.

                  3. To examine the impact of missing or unavailable AMP data on
                     mandated comparisons between ASPs and AMPs in 2008.


                  BACKGROUND
                  Since January 2005, Medicare Part B has been paying for most covered
                  drugs using a reimbursement methodology based on ASPs. In general
                  terms, an ASP is a manufacturer’s sales of a drug to all purchasers in
                  the United States in a calendar quarter divided by the total number of
                  units of the drug sold by the manufacturer in that same quarter, net of
                  any price concessions. Manufacturers report ASPs by national drug
                  codes (NDC) and must provide the Centers for Medicare & Medicaid
                  Services (CMS) with the ASP and volume of sales for each of their NDCs
                  on a quarterly basis. Under the ASP reimbursement methodology,
                  Medicare’s allowance for most Part B prescription drug Healthcare
                  Common Procedure Coding System (HCPCS) codes is equal to
                  106 percent of the volume-weighted ASPs for the NDCs associated with
                  each HCPCS code.

                  By law, the Office of Inspector General (OIG) must compare ASPs with
                  AMPs. As generally defined in statute, the AMP is the average price
                  paid to the manufacturer for the drug in the United States by
                  wholesalers for drugs distributed to the retail pharmacy class of trade.
                  Manufacturers whose drugs are covered by Medicaid generally must
                  provide CMS with the AMP for each of their NDCs on a quarterly basis
                  as part of the Medicaid drug rebate program.

                  If OIG finds that the ASP for a drug exceeds the AMP by a certain
                  percentage (currently 5 percent), the Secretary of Health and Human
                  Services (the Secretary) may disregard the ASP for the drug when
                  setting reimbursement and shall substitute the payment amount with
                  the lesser of either the widely available market price or 103 percent of
                  the AMP.



OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008           i
    E X E C U T I V E          S U M M A R Y


                  Since the ASP reimbursement methodology was implemented in 2005,
                  OIG has issued 14 reports comparing ASPs to AMPs. This current
                  comparison examines data across all four quarters of 2008 using the
                  volume-weighted ASP pricing methodology implemented by the
                  Medicare, Medicaid, and SCHIP Extension Act of 2007.

                  For this study, we obtained ASP and AMP data submitted by
                  manufacturers for all four quarters of 2008. We compared the
                  volume-weighted ASP and AMP for each HCPCS code in each quarter
                  and identified codes with ASPs that exceeded AMPs by at least
                  5 percent in one or more quarters of 2008. We also asked three
                  manufacturers to describe why the ASPs for certain drug products were
                  higher than the AMPs throughout 2008.

                  In addition, we identified the number of NDCs for which AMP data
                  were missing or unavailable in 2008, as well as the number of HCPCS
                  codes that were removed from OIG’s pricing comparisons because AMPs
                  were missing or unavailable.


                  FINDINGS
                  In 2008, ASPs for 80 HCPCS codes exceeded AMPs by at least
                  5 percent in one or more quarters. Of the 482 HCPCS codes examined
                  during 2008, 80 met the 5-percent threshold for price adjustment in at
                  least one quarter. Over 40 percent of these codes (33 of 80) met the
                  5-percent threshold in multiple quarters, with five codes meeting the
                  5-percent threshold in every quarter. If reimbursement amounts for all
                  80 HCPCS codes had been lowered to 103 percent of the AMPs during
                  the applicable quarter(s), we estimate that Medicare expenditures
                  would have been reduced by $21.9 million from the third quarter of
                  2008 through the second quarter of 2009.
                  Manufacturers identified several reasons why ASPs for certain
                  drugs consistently exceeded AMPs. According to manufacturers
                  associated with the five HCPCS codes that met the 5-percent threshold
                  in every quarter, ASPs can exceed AMPs as a result of many factors,
                  including the way in which AMPs were weighted, the types of sales
                  included in ASPs and AMPs, differential pricing arrangements among
                  purchasers, and errors in the calculation of AMPs.
                  Missing and unavailable AMP data in 2008 prevented OIG from
                  conducting thorough drug-pricing comparisons. A total of
                  1,431 NDCs had no AMP data during one or more quarters of 2008.
                  Manufacturers for almost 60 percent of these drug products participated

OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008         ii
    E X E C U T I V E          S U M M A R Y


                  in the Medicaid drug rebate program in 2008 and were therefore
                  generally required to submit AMP data for their products. Because some
                  NDCs had missing or unavailable AMPs, the number of pricing
                  comparisons performed for 2008 was reduced by 12 percent to 14 percent
                  in each quarter and 43 HCPCS codes were never evaluated.


                  RECOMMENDATIONS
                  The Social Security Act (the Act) directs the Secretary to lower
                  reimbursement amounts for drugs with ASPs that exceed AMPs by at
                  least 5 percent. Although CMS has acknowledged the Secretary’s
                  authority to adjust Part B reimbursement amounts based on the
                  findings of OIG’s pricing comparisons, the agency has yet to make any
                  changes as a result of these studies. CMS also has yet to specify the
                  process by which it would make reimbursement adjustments for drugs
                  that meet the 5-percent threshold.

                  OIG acknowledges that developing a price substitution policy involves
                  complex decisions, including the circumstances under which
                  substitutions would be made, the effective date of such substitutions,
                  and the time period for which the substitutions would remain in effect.
                  However, the gap between ASPs and AMPs for certain Part B drugs
                  indicates that Medicare and its beneficiaries may be overpaying for
                  those drugs. Therefore, to ensure the appropriateness of Medicare
                  Part B drug payments, and to be consistent with the congressional
                  mandate, we recommend that CMS:
                  develop a process to adjust payment amounts based on the results
                  of OIG’s pricing comparisons;
                  lower Medicare reimbursement amounts for drugs with ASPs that
                  meet the 5-percent threshold specified in section 1847A(d)(3) of the
                  Act; and
                  continue to explore and undertake a range of efforts to ensure that
                  drug manufacturers are submitting the required AMP data in a timely
                  manner, including collaborating with OIG about administrative
                  remedies for noncompliance.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our first and third recommendations but does not
                  currently concur with our second recommendation. With regard to our

OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008        iii
    E X E C U T I V E          S U M M A R Y


                  second recommendation, CMS stated that in light of the drug price
                  volatility identified by OIG, making price substitutions could have a
                  significant negative impact on both providers and beneficiaries. CMS
                  expressed a desire to better understand differences between ASPs and
                  AMPs, engage stakeholders affected by potential price substitutions,
                  and provide adequate notice when developing its price substitution
                  policies.

                  Although OIG has issued 14 reports demonstrating differences between
                  ASPs and AMPs over the past 5 years, CMS has yet to use our data to
                  propose or evaluate any concrete strategies for making price
                  substitutions. OIG acknowledges that CMS must make complex
                  decisions regarding price substitutions and that ASPs and AMPs will
                  inevitably fluctuate to some extent; however, OIG has not identified
                  significant volatility in the ASPs and AMPs for 33 of the 80 HCPCS
                  codes identified in this report. Rather, these codes have repeatedly been
                  identified as having ASPs at or above the 5-percent threshold. OIG will
                  continue to assist CMS, both in developing a price substitution policy
                  and in taking appropriate action against manufacturers that fail to
                  comply with AMP-reporting requirements.




OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008         iv
   T A B L E            O F             C O N T E N T S



         EXECUTIVE SUMMARY..................................i



         INTRODUCTION ......................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                   In 2008, ASPs for 80 HCPCS codes exceeded AMPs by at least
                   5 percent in one or more quarters . . . . . . . . . . . . . . . . . . . . . . . . . 10

                   Manufacturers identified several reasons why ASPs for
                   certain drugs consistently exceeded AMPs . . . . . . . . . . . . . . . . . . 11

                   Missing and unavailable AMP data in 2008 prevented OIG from
                   conducting thorough drug-pricing comparisons. . . . . . . . . . . . . . . 12



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                   Agency Comments and Office of Inspector General Response . . . 15


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                   A: Equations Used by the Centers for Medicare & Medicaid
                      Services To Calculate Volume-Weighted Average Sales
                      Prices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                   B: Previous Office of Inspector General Reports Comparing
                      Average Sales Prices and Average Manufacturer Prices. . . . . 19

                   C: Detailed Methodology for Calculating Volume-Weighted
                      Average Manufacturer Prices for 2008 . . . . . . . . . . . . . . . . . . 21

                   D: Detailed Methodology for Estimating Savings for Drug
                      Codes That Met the 5-Percent Threshold in 2008 . . . . . . . . . . 23

                   E: Eighty Drug Codes With Average Sales Prices That
                      Exceeded Average Manufacturer Prices by
                      at Least 5 Percent in 2008 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                   F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
          I N T R O D U C T I O N


                  OBJECTIVES
                  1. To identify drugs with average sales prices (ASP) that exceeded
                     average manufacturer prices (AMP) by at least 5 percent in any
                     quarter of 2008.

                  2. To determine why ASPs for certain drug products exceeded the
                     AMPs.

                  3. To examine the impact of missing or unavailable AMP data on
                     mandated comparisons between ASPs and AMPs in 2008.


                  BACKGROUND
                  Section 1847A(d)(2)(B) of the Social Security Act (the Act) mandates
                  that the Office of Inspector General (OIG) compare ASPs to AMPs. If
                  OIG finds that the ASP for a drug exceeds the AMP by a certain
                  percentage (currently 5 percent), section 1847A(d)(3)(A) of the Act states
                  that the Secretary of Health and Human Services (the Secretary) may
                  disregard the ASP for the drug when setting reimbursement amounts. 1
                  Section 1847A(d)(3)(C) of the Act goes on to state that “. . . the
                  Inspector General shall inform the Secretary (at such times as the
                  Secretary may specify to carry out this subparagraph) and the Secretary
                  shall, effective as of the next quarter, substitute for the amount of
                  payment . . . the lesser of (i) the widely available market price . . . (if
                  any); or (ii) 103 percent of the average manufacturer price . . . .”
                  Medicare Part B Coverage of Prescription Drugs
                  Medicare Part B covers only a limited number of outpatient prescription
                  drugs. Covered drugs include injectable drugs administered by a
                  physician; certain self-administered drugs, such as oral anticancer
                  drugs and immunosuppressive drugs; drugs used in conjunction with
                  durable medical equipment; and some vaccines.
                  Medicare Part B Payments for Prescription Drugs
                  The Centers for Medicare & Medicaid Services (CMS) contracts with
                  private companies, known as Medicare Administrative Contractors
                  (MAC), to process and pay Medicare Part B claims, including those for
                  prescription drugs. To obtain reimbursement for covered outpatient


                  1 Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the

                  applicable threshold percentage in 2006 and subsequent years; however, the threshold
                  percentage has been maintained at 5 percent.



OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                                  1
    I N T R O D U C T I O N


                  prescription drugs, physicians and suppliers submit claims to their
                  MACs using procedure codes. CMS established the Healthcare
                  Common Procedure Coding System (HCPCS) to provide a standardized
                  coding system for describing the specific items and services provided in
                  the delivery of health care. In the case of prescription drugs, each
                  HCPCS code defines the drug name and dosage size but does not specify
                  manufacturer or package size information.

                  Medicare and its beneficiaries spent over $11 billion for Part B drugs in
                  2008. 2 Although Medicare paid for more than 700 outpatient
                  prescription drug HCPCS codes that year, most of the spending for
                  Part B drugs was concentrated on a relatively small subset of those
                  codes. In 2008, 60 HCPCS codes accounted for 90 percent of the
                  expenditures for Part B drugs, with only 12 of these codes representing
                  half of the total Part B drug expenditures.
                  Reimbursement Methodology for Part B Drugs
                  Medicare Part B pays for most covered outpatient drugs using a
                  reimbursement methodology based on ASPs. Section 1847A(c) of the
                  Act, as added by the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003, P.L. No. 108-173, defines an ASP as a
                  manufacturer’s sales of a drug to all purchasers in the United States in
                  a calendar quarter divided by the total number of units of the drug sold
                  by the manufacturer in that same quarter. The ASP is net of any price
                  concessions, such as volume discounts, prompt pay discounts, cash
                  discounts, free goods contingent on purchase requirements,
                  chargebacks, and rebates other than those obtained through the
                  Medicaid drug rebate program. 3 Sales that are nominal in amount are
                  exempted from the ASP calculation, as are sales excluded from the
                  determination of “best price” in the Medicaid drug rebate program. 4, 5
                  Manufacturers report ASPs by national drug codes (NDC), which are
                  11-digit identifiers that indicate the manufacturer, product dosage form,
                  and package size of the drug. Manufacturers must provide CMS with


                  2 Medicare expenditures for Part B drugs in 2008 were calculated using CMS’s Part B
                  Analytics and Reports (PBAR). The PBAR data were downloaded on July 8, 2009.
                  3 Section 1847A(c)(3) of the Act.
                  4 Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available
                  from the manufacturer during the rebate period to any wholesaler, retailer, provider, health
                  maintenance organization, nonprofit entity, or governmental entity within the United
                  States, with certain exceptions.
                  5 Section 1847A(c)(2) of the Act.




OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                                    2
    I N T R O D U C T I O N


                  the ASP and volume of sales for each NDC on a quarterly basis, with
                  submissions due 30 days after the close of each quarter. 6
                  Because Medicare Part B reimbursement for outpatient drugs is based
                  on HCPCS codes rather than NDCs and more than one NDC may meet
                  the definition of a particular HCPCS code, CMS has developed a file
                  that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
                  information in this crosswalk file to calculate volume-weighted ASPs for
                  covered HCPCS codes.
                  Calculation of Volume-Weighted Average Sales Prices
                  To calculate volume-weighted ASPs, CMS uses an equation that
                  involves the following variables: the ASP for the 11-digit NDC as
                  reported by the manufacturer, the volume of sales for the NDC as
                  reported by the manufacturer, and the number of billing units in the
                  NDC as determined by CMS. The amount of the drug contained in an
                  NDC may differ from the amount of the drug specified by the HCPCS
                  code that providers use to bill Medicare. Therefore, the number of
                  billing units in an NDC describes the number of HCPCS code units that
                  are in that NDC. For instance, an NDC may contain a total of
                  10 milliliters of Drug A, but the corresponding HCPCS code may be
                  defined as only 5 milliliters of Drug A. In this case, there are two billing
                  units in the NDC. CMS calculates the number of billing units in each
                  NDC when developing its crosswalk files.

                  Before April 2008, CMS calculated volume-weighted ASPs using the
                  equation presented in Appendix A. However, section 112(a) of the
                  Medicare, Medicaid, and SCHIP Extension Act of 2007, P.L. No.
                  110-173, changed section 1847A(b) of the Act to require that CMS
                  compute volume-weighted ASPs using a revised methodology, effective
                  April 2008. 7 The revised equation for calculating volume-weighted
                  ASPs is also provided in Appendix A.

                  Under the ASP pricing methodology, the Medicare reimbursement for
                  most Part B drugs is equal to 106 percent of the volume-weighted ASP
                  for the HCPCS code. 8 However, there is a two-quarter lag between the


                  6 Section 1927(b)(3) of the Act.
                  7 This revised methodology was proposed by OIG in a February 2006 report entitled

                  Calculation of Volume-Weighted Average Sales Price for Medicare Part B Prescription
                  Drugs, OEI-03-05-00310.
                  8 Medicare beneficiaries are responsible for 20 percent of this amount in the form of
                  coinsurance.



OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                            3
    I N T R O D U C T I O N


                  sales period for which ASPs are reported and the effective date of the
                  reimbursement amounts. For example, ASPs from the first quarter of
                  2008 were used to establish reimbursement amounts for the third
                  quarter of 2008, and ASPs from the fourth quarter of 2008 were used to
                  establish reimbursement amounts for the second quarter of 2009.

                  As a result of this lag period, the methodological changes that went into
                  effect in April 2008 were applied to ASP data from two quarters prior,
                  i.e., the fourth quarter of 2007. Therefore, CMS used the revised
                  methodology to volume-weight ASP data submitted by manufacturers
                  for all four quarters of 2008.
                  The Medicaid Drug Rebate Program and Average Manufacturer Prices
                  For Federal payment to be available for covered outpatient drugs
                  provided under Medicaid, sections 1927(a)(1) and (b)(1) of the Act
                  mandate that drug manufacturers enter into rebate agreements with
                  the Secretary and pay quarterly rebates to State Medicaid agencies.
                  Under these rebate agreements and pursuant to section 1927(b)(3) of
                  the Act, manufacturers must provide CMS with the AMP for each of
                  their NDCs on a quarterly basis, with submissions due 30 days after the
                  close of each quarter. 9
                  As generally defined in section 1927(k)(1) of the Act, the AMP is the
                  average price paid to the manufacturer for the drug in the United
                  States by wholesalers for drugs distributed to the retail pharmacy class
                  of trade. Before the passage of the DRA, manufacturers were required
                  to deduct customary prompt pay discounts when calculating AMPs.
                  However, section 6001(c)(1) of the DRA amended section 1927(k)(1) of
                  the Act such that AMPs must be determined without regard to
                  customary prompt pay discounts, effective January 2007. 10 In July
                  2007, CMS published a final rule at 72 Fed. Reg. 39142 (July 17, 2007)
                  that, among other things, implements section 6001(c)(1) of the DRA and


                  9 Section 6001(b)(1)(A) of the Deficit Reduction Act of 2005 (DRA), P.L. No. 109-171,

                  changed section 1927(b) of the Act to require that manufacturers also report AMPs on a
                  monthly basis, effective January 2007. Drug manufacturers will continue to report
                  quarterly AMP data in addition to their monthly submissions.
                  10 In addition, section 6001(b) of the DRA amended section 1927(b)(3) of the Act such that
                  AMPs must be provided to States on a monthly basis and through a Web site that is
                  publicly accessible. However, in December 2007, the United States District Court for the
                  District of Columbia preliminarily enjoined the disclosure of AMP data to States and the
                  public for certain purposes not related to this report. Section 203 of the Medicare
                  Improvements for Patients and Providers Act of 2008 also delayed public disclosure of AMP
                  data.



OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                                 4
    I N T R O D U C T I O N


                  clarifies the way in which the AMP must be calculated. Specifically,
                  42 CFR § 447.504 of the final regulation clarifies the manner in which
                  the AMP is to be determined. 11
                  The AMP is generally calculated as a weighted average of prices for all
                  of a manufacturer’s package sizes of a drug sold during a given quarter
                  and is reported for the lowest identifiable quantity of the drug (e.g.,
                  1 milliliter, 1 tablet, 1 capsule).

                  Pursuant to section 1927(b)(3)(C) of the Act, manufacturers that fail to
                  provide AMP data on a timely basis may be subject to either monetary
                  penalties or termination from the drug rebate program. The
                  responsibility to impose penalties pursuant to section 1927(b)(3)(C) of
                  the Act has been delegated to OIG by the Secretary. 12 Pursuant to
                  section 1927(b)(4)(B) of the Act, CMS also has authority to terminate
                  the rebate agreements of manufacturers that fail to report timely AMP
                  data. 13 CMS has terminated a number of manufacturers’ rebate
                  agreements for failure to report drug pricing data as required. For the
                  purposes of evaluating potential civil monetary penalty actions, CMS
                  has also been providing OIG with information about manufacturers that
                  repeatedly failed to submit timely drug-pricing data.
                  Office of Inspector General’s Monitoring of Average Sales Prices and
                  Average Manufacturer Prices
                  In accordance with its congressional mandate, OIG has issued
                  13 quarterly pricing comparisons since the ASP reimbursement
                  methodology for Part B drugs was implemented in January 2005. In
                  addition, OIG completed an annual overview of ASPs and AMPs, which
                  examined data across all four quarters of 2007 using the revised
                  methodology mandated by statute. A list of all 14 reports is provided in
                  Appendix B. OIG has recommended that CMS develop a process to
                  adjust payment amounts based on the results of these pricing
                  comparisons and subsequently lower reimbursement for drugs that
                  meet the 5-percent threshold.


                  11In December 2007, the United States District Court for the District of Columbia also
                  preliminarily enjoined the implementation of this regulation for certain purposes not
                  relevant to this report. Section 203 of the Medicare Improvements for Patients and
                  Providers Act of 2008 also delayed the implementation of certain aspects of the regulation.
                  Again, those aspects are not relevant for the purposes of this report.
                  12 59 Fed. Reg. 52967 (Oct. 20, 1994).
                  13 Specifically, CMS may terminate a rebate agreement “for violation of the requirements of
                  the agreement or other good cause shown.”



OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                                  5
    I N T R O D U C T I O N


                  Although CMS has acknowledged the Secretary’s authority to adjust
                  ASP payment limits based on the findings of OIG’s pricing comparisons,
                  CMS has yet to make any changes to Part B drug reimbursement as a
                  result of these studies. Rather, CMS has emphasized both the
                  complexity of substituting payment amounts and the importance of
                  proceeding cautiously to avoid unintended consequences. 14 In
                  commenting on OIG’s reports, CMS has expressed a desire to both
                  better understand fluctuating differences between ASPs and AMPs and
                  engage stakeholders, with the intent of developing a process for making
                  price substitutions. 15 However, CMS has not specified what, if any,
                  steps it will take to adjust Medicare reimbursement amounts for drugs
                  that meet the 5-percent threshold specified in section 1847A(d)(3) of the
                  Act.

                  This current report is OIG’s second annual overview of ASPs and AMPs,
                  and it examines data across all four quarters of 2008 using the revised
                  volume-weighted ASP methodology mandated by statute.

                  OIG will continue to meet its congressional mandate by issuing reports
                  based on quarterly pricing comparisons, along with annual overviews to
                  summarize findings across each calendar year.


                  METHODOLOGY
                  We obtained files from CMS containing NDC-level ASP data from the
                  first through fourth quarters of 2008, which were used to establish
                  Part B drug reimbursement amounts for the third quarter of 2008
                  through the second quarter of 2009, respectively. These files also
                  include information that crosswalks NDCs to their corresponding
                  HCPCS codes. We also obtained AMP data from CMS for the first
                  through fourth quarters of 2008. 16
                  Calculation of Volume-Weighted Average Sales Prices and
                  Volume-Weighted Average Manufacturer Prices for 2008
                  As mentioned previously, Medicare does not base reimbursement for
                  covered drugs on NDCs; instead, it uses HCPCS codes. Therefore, CMS


                  14 OEI-03-08-00450, December 2008.
                  15 OEI-03-07-00140, July 2007, and OEI-03-08-00450, December 2008.
                  16 ASP and crosswalk data from the first through fourth quarters of 2008 were current as of
                  June 2008, September 2008, December 2008, and March 2009, respectively. AMP data from
                  the first through fourth quarters of 2008 were current as of May 2008, August 2008,
                  November 2008, and February 2009, respectively.



OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                              6
    I N T R O D U C T I O N


                  uses quarterly ASP information submitted by manufacturers for each
                  NDC to calculate a volume-weighted ASP for each covered HCPCS code.
                  When calculating these volume-weighted ASPs, CMS includes only
                  NDCs with ASP submissions that are deemed valid.

                  As part of our analysis for each of the 2008 quarterly reports, we
                  calculated a volume-weighted AMP for each HCPCS code, consistent
                  with CMS’s methodology for calculating volume-weighted ASPs. Prior
                  to 2008, OIG computed volume-weighted AMPs only for those HCPCS
                  codes with AMP data for every drug product used by CMS to calculate
                  the Medicare reimbursement amount. As a result, the number of
                  comparisons performed in 2007 was reduced by at least 25 percent in
                  each quarter and over 100 HCPCS codes were never evaluated pursuant
                  to section 1847A(d)(2)(B) of the Act. To ensure that a broader range of
                  drug codes was subject to OIG’s pricing comparisons in 2008, we began
                  additionally examining drug codes with only partial AMP data (i.e.,
                  drug codes with AMP data for some, but not all, of the products used to
                  establish Medicare reimbursement). Appendix C provides a detailed
                  description of the methods used to calculate volume-weighted AMPs for
                  HCPCS codes using complete or partial AMP data.
                  Comparing Volume-Weighted ASPs to Volume-Weighted AMPs for 2008
                  In each of our 2008 quarterly reports, we compared the
                  volume-weighted ASPs and AMPs and identified HCPCS codes with
                  ASPs that exceeded the AMPs by at least 5 percent using either
                  complete or partial AMP data.

                  For those HCPCS codes that met or exceeded the 5-percent threshold,
                  we conducted a review of the associated NDCs to verify the accuracy of
                  the billing unit information for the quarter(s) in which the threshold
                  was met. If HCPCS codes had potentially inaccurate billing units, we
                  did not include them in our findings.

                  To identify codes with ASPs that exceeded AMPs by at least 5 percent in
                  one or more quarters of 2008, we then merged the results of the pricing
                  comparisons from all four quarters.

                  Estimating the monetary impact of lowering reimbursement. We
                  additionally estimated the monetary impact of lowering reimbursement
                  to 103 percent of the AMP for codes that met the 5-percent threshold in




OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008        7
    I N T R O D U C T I O N


                  at least one quarter of 2008. 17 In our separate quarterly pricing
                  comparisons for 2008, savings estimates for codes that met the
                  threshold in the first through third quarters were based on CMS’s
                  Part B Extract and Summary System (BESS) data from 2007, whereas
                  savings estimates for codes in the fourth quarter were based on BESS
                  data from 2008. To ensure that the savings estimates were consistent
                  and reflective of the most current Medicare expenditures, we
                  recalculated the savings estimates for the codes that met the threshold
                  in one or more quarters of 2008 using updated PBAR data for 2008. 18
                  As a result, the estimated savings presented in this yearend overview
                  may differ from the savings presented in each of the separate quarterly
                  reports previously published by OIG. Appendix D provides a more
                  detailed description of the methods we used to estimate savings for
                  HCPCS codes that were eligible for price adjustment.

                  Manufacturer followup. For HCPCS codes that met the 5-percent
                  threshold in every quarter of 2008, we identified any corresponding
                  NDCs that had ASPs that exceeded the AMPs. To determine why ASPs
                  repeatedly exceeded AMPs for certain drug products, we contacted the
                  manufacturers associated with these NDCs. Using written data
                  collection instruments distributed by mail, we asked the manufacturers
                  to verify 2008 ASPs and AMPs for the NDCs in question and to explain
                  why the ASPs for those NDCs were higher than the AMPs throughout
                  2008.
                  Analysis of Average Manufacturer Price Data That Were Missing or
                  Unavailable in 2008
                  We examined the number of NDCs for which manufacturers submitted
                  ASP data but not AMP data across all four quarters of 2008. For the
                  purposes of this study, an AMP was considered “missing” if the
                  manufacturer had a Medicaid rebate agreement in 2008 but did not
                  submit a price for the quarter. An AMP was considered “unavailable”
                  for an NDC if the manufacturer did not participate in the Medicaid drug


                  17 Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for
                  drugs that meet the 5-percent threshold with the lesser of the widely available market price
                  for the drug (if any) or 103 percent of the AMP. For the purposes of this study, we used
                  103 percent of the AMP to estimate the impact of lowering reimbursement amounts. If
                  widely available market prices had been available for these drugs and lower than
                  103 percent of the AMP, the savings estimate presented in this report would have been
                  greater.
                  18 CMS replaced BESS with PBAR in 2009, populating PBAR with data from both current
                  and prior years.



OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                                8
    I N T R O D U C T I O N


                  rebate program and was therefore not required to submit AMP data to
                  CMS. 19
                  In each of our pricing comparisons for 2008, we excluded HCPCS codes
                  that had missing or unavailable AMP data for all of the NDCs CMS
                  used to calculate Medicare reimbursement. To identify the total
                  number of HCPCS codes that were excluded from OIG pricing
                  comparisons in 2008, we merged the results from each of the four
                  quarterly reports. We then determined the number of HCPCS codes
                  that were never included in OIG’s pricing comparisons in 2008 because
                  of missing or unavailable AMP data.
                  Limitations
                  We did not verify the accuracy of all manufacturer-reported ASP and
                  AMP data, nor did we verify the underlying methodology used by
                  manufacturers to calculate ASPs and AMPs. Manufacturers’
                  explanations as to why certain ASPs consistently exceeded AMPs were
                  self-reported. We did not verify whether these explanations were
                  accurate. We also did not verify the accuracy of CMS’s crosswalk files
                  or examine NDCs that CMS opted to exclude from its calculation of Part
                  B drug reimbursement amounts.

                  Manufacturers are required to submit their quarterly ASP and AMP
                  data to CMS 30 days after the close of the quarter. Our analyses were
                  performed on ASP and AMP data compiled by CMS soon after that
                  deadline. We did not determine whether manufacturers provided any
                  revised and/or missing data to CMS at a later date.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspections approved by the Council of the Inspectors General on
                  Integrity and Efficiency.




                  19 To determine whether a manufacturer participated in the Medicaid drug rebate program
                  in 2008, we consulted the list of participating drug companies posted on CMS’s Web site.



OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                               9
          F I N D I N G S

                    In 2008, ASPs for 80 HCPCS codes            Consistent with sections
                  exceeded AMPs by at least 5 percent           1847A(d)(2)(B) and 1847A(d)(3) of
                                                                the Act, OIG compared ASPs to
                               in one or more quarters
                                                                AMPs to identify instances in
                         which the ASP for a particular drug exceeded the AMP by a threshold of
                         5 percent. Of the 482 HCPCS codes examined during 2008, 80 met this
                         5-percent threshold in at least one quarter using either complete AMP
                         data or partial AMP data.
                         Appendix E presents a list of the 80 HCPCS codes, including the
                         quarter(s) during which the codes met the 5-percent threshold, and
                         indicates whether each met the threshold using complete or partial
                         AMP data.
                         Thirty-three of the eighty HCPCS codes met the 5-percent threshold during
                         multiple quarters of 2008
                         In 2008, ASPs for five HCPCS codes (J0560, J1190, J1364, J2310, and
                         Q0169) exceeded the AMPs by at least 5 percent in every quarter. An
                         additional 10 HCPCS codes met the 5-percent threshold in three of the
                         four quarters. For another 18 HCPCS codes, ASPs exceeded AMPs by
                         at least 5 percent in two quarters.
                         Lowering reimbursement amounts for the 80 HCPCS codes to 103 percent of
                         the AMPs would have reduced Medicare payments by almost $22 million
                         over a four-quarter period
                         Sections 1847A(d)(3)(A) and (B) of the Act provide that the Secretary
                         may disregard the ASP pricing methodology for a drug with an ASP
                         that exceeds the AMP by at least 5 percent. Pursuant to section
                         1847A(d)(3)(C) of the Act, “. . . the Secretary shall, effective as of the
                         next quarter, substitute for the amount of payment . . . the lesser of (i)
                         the widely available market price . . . (if any); or (ii) 103 percent of the
                         average manufacturer price . . . .” In this study, we identified
                         80 HCPCS codes that met the 5-percent threshold in at least one
                         quarter of 2008. If reimbursement amounts for these 80 codes had been
                         lowered to 103 percent of the AMPs during the applicable quarters, we
                         estimate that Medicare expenditures would have been reduced by
                         $21.9 million between the third quarter of 2008 and the second quarter
                         of 2009. 20


                         20 ASP data from the first through fourth quarters of 2008 were used to establish

                         reimbursement amounts for the third quarter of 2008 through the second quarter of 2009,
                         respectively.



OEI-03-09-00350          COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                          10
    F I   N D I    N G   S



                      Manufacturers identified several          For the five HCPCS codes that
                  reasons why ASPs for certain drugs            met the 5-percent threshold in
                                                                every quarter of 2008, we
                        consistently exceeded AMPs
                                                                identified any corresponding
                         NDCs with ASPs that exceeded the AMPs during each period (a total of
                         six NDCs). We then contacted the three manufacturers associated with
                         those six NDCs to verify their pricing data and to determine why ASPs
                         for those products repeatedly exceeded the AMPs. These manufacturers
                         confirmed that the ASPs for their drugs exceeded the AMPs based on
                         the pricing data provided to CMS and identified a number of reasons as
                         to why this occurred.
                         The manufacturer of one drug product cited differences in the ways in
                         which ASPs and AMPs are calculated. ASPs are calculated for a specific
                         package size of a drug (i.e., at the 11-digit NDC level). AMPs are
                         calculated as an average across all package sizes of a drug, and that
                         average price is then reported for each of the corresponding package
                         sizes. The manufacturer noted that because the AMPs for that drug
                         were weighted toward the lower priced, higher volume products, the
                         ASPs for the drug exceeded the AMPs.

                         According to another manufacturer, AMPs for three drug products were
                         low because the limited number of customers purchasing those drug
                         products in the retail pharmacy class of trade had access to very
                         aggressive prices negotiated by hospital group purchasing organizations
                         (GPO). The ASPs for those three products, which included a broader
                         range of customers and prices, were higher by comparison.

                         The same manufacturer reported that the ASPs for another of its
                         products exceeded the AMPs because of differential adjustments to the
                         price agreements governing sales of the product in different settings.
                         Specifically, the sales included in the ASPs were based on annually
                         adjusted price agreements with hospital GPOs, whereas the sales
                         included in the AMPs were based on long-term agreements without
                         incremental price adjustments.

                         According to the manufacturer of the remaining drug product, ASPs
                         exceeded AMPs in each quarter of 2008 because the AMPs were
                         incorrectly determined by the manufacturer. 21 If the manufacturer had


                         21 For each of the other five NDCs included in our review, manufacturers verified that the
                         2008 quarterly ASPs and AMPs were correct.



OEI-03-09-00350          COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                             11
    F I   N D I   N G   S


                        calculated the AMPs correctly in 2008, ASPs would not have exceeded
                        AMPs for this drug product and the corresponding HCPCS code would
                        not have met the 5-percent threshold in any quarter. 22
                        We will provide CMS with more detailed information regarding
                        manufacturers’ explanations for why ASPs exceeded AMPs.


            Missing and unavailable AMP data in 2008           Missing or unavailable AMP
                      prevented OIG from conducting            data can significantly reduce the
                                                               number of drug codes that are
                  thorough drug-pricing comparisons
                                                               evaluated pursuant to sections
                        1847A(d)(2)(B) and 1847A(d)(3) of the Act. By including HCPCS codes
                        with partial AMP data in its pricing comparisons for 2008, OIG was
                        able to compare ASPs and AMPs for more HCPCS codes than in the
                        previous year. However, missing and unavailable AMP data in 2008
                        continued to prevent OIG from conducting thorough drug pricing
                        comparisons.
                        Almost 60 percent of NDCs without AMP data belonged to manufacturers
                        with Medicaid drug rebate agreements
                        A total of 1,431 NDCs had no AMP data during one or more quarters of
                        2008. Manufacturers for 59 percent of these NDCs (843 of 1,431)
                        participated in the Medicaid drug rebate program during 2008 and were
                        therefore generally required to submit AMP data. 23, 24 For 5 percent of
                        these NDCs (45 of 843), manufacturers did not submit AMP data for
                        any quarter of 2008. The majority (57 percent) of the 843 NDCs with
                        missing AMP data belonged to 3 manufacturers.

                        Manufacturers for the remaining 588 of 1,431 NDCs did not participate in
                        the Medicaid drug rebate program in 2008 and therefore were not required
                        to submit AMP data during that time.


                        22 The HCPCS code in question did not have any allowed services during 2008 and
                        therefore would not affect the savings estimate included in this report.
                        23 Although manufacturers with rebate agreements are generally required to submit AMP
                        data, there may be valid reasons as to why AMP data were not provided for a specific NDC
                        in a given quarter. For example, a manufacturer may not necessarily be required to submit
                        an AMP if the drug product has been terminated and there was no Medicaid drug
                        utilization during the quarter.
                        24 Manufacturers for 7 of the 843 NDCs had rebate agreements during some, but not all, of
                        the quarters for which the NDCs had no AMP data. We considered the AMPs for these
                        seven NDCs to be missing in the quarters for which manufacturers had rebate agreements
                        and unavailable during the quarters in which they did not.



OEI-03-09-00350         COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                           12
    F I     N D I        N G      S


                                 As a result of NDCs without AMP data, the number of pricing comparisons
                                 performed in 2008 was reduced by at least 12 percent in each quarter
                                 If a HCPCS code had no AMPs for any of its associated NDCs, we could
                                 not evaluate that code pursuant to sections 1847A(d)(2)(B) and
                                 1847A(d)(3) of the Act. In 2008, between 12 percent and 14 percent of
                                 HCPCS codes were excluded from OIG’s pricing comparisons in each
                                 quarter because no AMPs were available for any of the NDCs associated
                                 with the HCPCS codes. 25 Table 1 lists the number and percentage of
                                 HCPCS codes in each quarter that were excluded from our analysis, as
                                 well as the number of NDCs associated with the excluded HCPCS codes.
          Table 1: HCPCS Codes That Were Excluded From 2008 Pricing Comparisons
                                              Number of NDCs                 Number of HCPCS Codes                 Percentage of
                                           Associated With the                      Excluded Because      HCPCS Codes Excluded
                                             Excluded HCPCS                 None of the Corresponding                Because of
           Quarter in 2008                             Codes                      NDCs Had AMP Data       NDCs Without AMP Data

           First Quarter                                           436                               76                     14%
                            Missing                                 99
                       Unavailable                                 337
           Second Quarter                                          433                               68                     13%
                            Missing                                 81
                       Unavailable                                 352
           Third Quarter                                           222                               67                     13%
                            Missing                                 65
                       Unavailable                                 157
           Fourth Quarter                                          209                               65                     12%
                            Missing                                 51
                       Unavailable                                 158
          Source: OIG analysis of ASP and AMP data from the first through fourth quarters of 2008.

                                 In total, 111 different HCPCS codes were excluded from OIG’s pricing
                                 comparisons in one or more quarters of 2008 because AMP data were
                                 missing or unavailable for all of the NDCs that CMS used to calculate
                                 Medicare reimbursement for that quarter. For 43 of the 111 codes, we
                                 were never able to perform pricing comparisons in 2008 because AMPs
                                 were always missing or unavailable for all of the associated NDCs.
                                 Just over half of these HCPCS codes (22 of 43) were associated only
                                 with NDCs that had unavailable AMP data. Therefore, we would never
                                 have been able to include these 22 codes in our pricing comparisons.


                                 25 Relative to the total number of HCPCS codes in each quarter with Medicare
                                 reimbursement amounts based on the ASP payment methodology.



OEI-03-09-00350                  COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                              13
    R E C O M M E N D A T I O N S
          R E C O M M E N D A T I O N S

                  Section 1847A(d)(3)(C) of the Act directs the Secretary to lower
                  reimbursement amounts for drugs with ASPs that exceed AMPs by at
                  least 5 percent. CMS has acknowledged the Secretary’s authority to
                  adjust Part B reimbursement amounts based on the findings of OIG’s
                  pricing comparisons; however, the agency has not made any changes as
                  a result of these studies. CMS also has yet to specify the process by
                  which it would make reimbursement adjustments for drugs that meet
                  the 5-percent threshold.

                  This current study, which summarizes data across all four quarters of
                  2008, identified 80 drug codes that were eligible for price adjustment
                  based on either complete or partial AMP data. Thirty-three of the
                  eighty drug codes met the 5-percent threshold during multiple quarters
                  of 2008. If reimbursement amounts for all 80 codes had been lowered to
                  103 percent of the AMPs during the applicable quarters, Medicare and
                  its beneficiaries would have saved an estimated $21.9 million.

                  According to manufacturers associated with drugs that met the
                  5-percent threshold in every quarter, ASPs can exceed AMPs as a result
                  of many factors, including the way in which AMPs were weighted, the
                  types of sales included in ASPs and AMPs, differential pricing
                  arrangements among purchasers, and errors in the calculation of AMPs.

                  By including HCPCS codes with partial AMP data in its pricing
                  comparisons for 2008, OIG was able to compare ASPs and AMPs for
                  more HCPCS codes than in the previous year; however, missing and
                  unavailable AMP data continued to limit OIG’s ability to conduct
                  thorough drug pricing comparisons.

                  OIG acknowledges that developing a price substitution policy involves
                  complex decisions, including the circumstances under which
                  substitutions would be made, the effective date of such substitutions,
                  and the time period for which the substitutions would remain in effect.
                  However, the gap between ASPs and AMPs for certain Part B drugs
                  indicates that Medicare and its beneficiaries may be overpaying for
                  those drugs. Therefore, to ensure the appropriateness of Medicare
                  Part B drug payments and to be consistent with the congressional
                  mandate, we recommend that CMS:
                  Develop a process to adjust payment amounts based on the results of OIG’s
                  pricing comparisons
                  In developing a process to adjust payments, CMS could specify the
                  circumstances under which it will make adjustments, the time period(s)
                  to which the adjustments would apply, and the length of time the

OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008        14
    R E C O M M E N D A T I O N S


                  adjustments would remain in effect. CMS may also wish to conduct
                  additional analysis of the differences between ASPs and AMPs and the
                  quality of the data reported by manufacturers.

                  CMS should also determine whether the current 5-percent threshold is
                  appropriate for initiating price substitution. Pursuant to section
                  1847A(d)(3)(B)(ii) of the Act, CMS has authority to adjust the threshold
                  percentage used in OIG’s comparisons of ASPs and AMPs. In its
                  comments on previous OIG pricing comparisons, CMS stressed the
                  importance of proceeding cautiously while it seeks to further
                  understand the appropriate threshold percentage for price
                  substitutions. However, CMS has yet to make any changes to the
                  threshold percentage, and it is unclear what steps, if any, CMS has
                  taken to determine a more appropriate cutoff. If CMS believes that
                  5 percent is not the most appropriate threshold for price substitution, it
                  should adjust the percentage as necessary.
                  Lower Medicare reimbursement amounts for drugs with ASPs that meet the
                  5-percent threshold specified in section 1847A(d)(3) of the Act
                  CMS may want to focus specifically on those drugs that, according to
                  OIG’s yearend review, met the 5-percent threshold in multiple quarters.
                  Continue to explore and undertake a range of efforts to ensure that drug
                  manufacturers are submitting the required AMP data in a timely manner,
                  including collaborating with OIG about administrative remedies for
                  noncompliance
                  We recognize that CMS has taken steps to ensure that quarterly AMP
                  data are reported by manufacturers in a timely manner. If and when CMS
                  is permitted to publicly disclose AMP data, the resulting transparency
                  may lead to more timely and accurate reporting of pricing data. In the
                  meantime, CMS should continue to evaluate and pursue appropriate
                  actions against those manufacturers that fail to submit required data by
                  the statutory deadline. This may include termination actions and
                  referrals to OIG for the pursuit of civil monetary penalty actions. In doing
                  so, CMS could focus on those manufacturers with either a relatively large
                  percentage of missing AMP data or manufacturers that consistently fail to
                  submit AMP data by the statutory deadline.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In response to OIG’s report, CMS conducted additional analysis and
                  noted that it is difficult to identify a causal relationship that explains

OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008            15
    R E C O M M E N D A T I O N S


                  why the ASP for a particular HCPCS code would exceed the AMP by
                  5 percent or more. According to CMS, the OIG report and CMS analysis
                  demonstrate the complexity of making price substitutions.

                  CMS concurred with our first recommendation to develop a process for
                  adjusting payment amounts based on the results of OIG’s pricing
                  comparisons. However, CMS does not currently concur with our second
                  recommendation to lower Medicare reimbursement for drugs that meet
                  the 5-percent threshold. CMS stated that in light of the drug price
                  volatility identified by OIG, making price substitutions could have a
                  significant negative impact on both providers and beneficiaries. CMS
                  expressed a desire to better understand differences between ASPs and
                  AMPs, engage stakeholders affected by potential price substitutions,
                  and provide adequate notice when developing price substitution policies.
                  With respect to the threshold percentage for price substitutions, CMS
                  noted that it does not have sufficient data to suggest a more appropriate
                  level and will therefore continue the 5-percent threshold into 2010.

                  Finally, CMS concurred with our third recommendation to ensure that
                  manufacturers submit timely AMP data and outlined several steps that
                  it already takes to address this issue, including prompting
                  noncompliant manufacturers to report outstanding prices and referring
                  noncompliant manufacturers to OIG. CMS stated that it will continue
                  to work with OIG and supports appropriate enforcement action against
                  manufacturers that fail to comply with reporting requirements.

                  Beginning with its comments on OIG’s July 2007 pricing comparison,
                  CMS has repeatedly emphasized the complexity of substituting
                  payment amounts and expressed a desire to better understand
                  differences between ASPs and AMPs with the intent of developing a
                  price substitution policy. Although OIG has issued 14 reports
                  demonstrating differences between ASPs and AMPs over the past
                  5 years, CMS has yet to use our data to propose or evaluate any
                  concrete strategies for making price substitutions.

                  OIG acknowledges that CMS must make complex decisions regarding
                  price substitutions and that ASPs and AMPs will inevitably fluctuate to
                  some extent; however, OIG has not identified significant volatility in the
                  ASPs and AMPs for 33 of the 80 HCPCS codes identified in this report.
                  Rather, these codes have repeatedly been identified as having ASPs at
                  or above the 5-percent threshold. Therefore, consistent with statutory
                  requirements, we continue to recommend that Medicare reimbursement
                  amounts for eligible codes be lowered, particularly for codes that meet

OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008         16
    R E C O M M E N D A T I O N S


                  the threshold percentage in multiple quarters. OIG will continue to
                  assist CMS, both in developing a timely and effective price substitution
                  policy and in taking appropriate action against manufacturers that fail
                  to comply with AMP-reporting requirements.

                  For the full text of CMS’s comments, see Appendix F.




OEI-03-09-00350   COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008         17
          A P P E N D I X                                 ~        A

                  Equations Used by the Centers for Medicare & Medicaid Services To
                  Calculate Volume-Weighted Average Sales Prices
                  In the following equations, a “billing unit” is defined as the number of Healthcare
                  Common Procedure Coding System (HCPCS) code units that are contained in a
                  national drug code (NDC).


                  1. The Revised Equation Used by the Centers for Medicare & Medicaid
                     Services (CMS) To Calculate Volume-Weighted Average Sales Prices (ASP)
                     Beginning April 1, 2008


                    Volume-Weighted ASP                             Sum of (ASP for NDC x Number of NDCs Sold)
                                             =
                     for the Billing Unit of
                         HCPCS Code                             Sum of (Number of NDCs Sold x Billing Units in NDC)




                  2. The Equation Used by CMS To Calculate Volume-Weighted ASPs Before
                     April 1, 2008

                                                                           ASP for NDC         x Number of NDCs Sold
                    Volume-Weighted ASP                    Sum of
                                                                        Billing Units in NDC
                     for the Billing Unit of
                         HCPCS Code          =
                                                                                     Sum of Number of NDCs Sold




OEI-03-09-00350             COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                               18
          A P P E N D I X                                ~       B

                  Previous Office of Inspector General Reports Comparing Average Sales
                  Prices and Average Manufacturer Prices


                     Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales
                      Prices to Average Manufacturer Prices, OEI-03-04-00430, April 2006


                     Comparison of Fourth-Quarter 2005 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second
                      Quarter 2006, OEI-03-06-00370, July 2006


                     Comparison of Third-Quarter 2006 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2007, OEI-03-07-00140, July 2007


                     Comparison of First-Quarter 2007 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2007, OEI-03-07-00530, September 2007


                     Comparison of Second-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                      Quarter 2007, OEI-03-08-00010, December 2007


                     Comparison of Third-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2008, OEI-03-08-00130, May 2008


                     Comparison of Fourth-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second
                      Quarter 2008, OEI-03-08-00340, August 2008


                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2007, OEI-03-08-00450, December 2008




OEI-03-09-00350            COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008       19
    A P P         E N D I X        ~           B


                      Comparison of First-Quarter 2008 Average Sales Prices and Average
                       Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                       2008, OEI-03-08-00530, December 2008


                      Comparison of Second-Quarter 2008 Average Sales Prices and Average
                       Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                       Quarter 2008, OEI-03-09-00050, February 2009


                      Comparison of Third-Quarter 2008 Average Sales Prices and Average
                       Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                       2009, OEI-03-09-00150, April 2009


                      Comparison of Fourth-Quarter 2008 Average Sales Prices and Average
                       Manufacturer Prices: Impact on Medicare Reimbursement for Second
                       Quarter 2009, OEI-03-09-00340, August 2009


                      Comparison of First-Quarter 2009 Average Sales Prices and Average
                       Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                       2009, OEI-03-09-00490, August 2009


                      Comparison of Second-Quarter 2009 Average Sales Prices and Average
                       Manufacturer Prices: Impact on Medicare Reimbursement for Fourth
                       Quarter 2009, OEI-03-09-00640, January 2010




OEI-03-09-00350             COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008    20
    I N T R O D U C T I O N
          A P P E N D I X                               ~       C

                  Detailed Methodology for Calculating Volume-Weighted Average
                  Manufacturer Prices for 2008
                          Before computing quarterly volume-weighted average manufacturer
                          prices (AMP) for 2008, it was necessary to identify the national drug
                          codes (NDC) that should be included in each quarter’s calculations.
                          Prior to 2008, the Office of Inspector General (OIG) performed pricing
                          comparisons for only those Healthcare Common Procedure Coding
                          System (HCPCS) codes with complete AMP data (i.e., AMP data for
                          every NDC used by CMS to calculate the Medicare reimbursement
                          amount). As of the first quarter of 2008, we began additionally
                          examining HCPCS codes with only partial AMP data (i.e., HCPCS codes
                          with AMP data for some, but not all, of the NDCs used to establish
                          Medicare reimbursement). 26
                          Calculating Converted Average Manufacturer Prices
                          An AMP is reported for the lowest identifiable quantity of the drug
                          contained in the NDC (e.g., 1 milligram, 1 milliliter, 1 tablet, 1 capsule).
                          In contrast, an ASP is reported for the entire amount of the drug
                          contained in the NDC (e.g., for 50 milliliters, for 100 tablets). To ensure
                          that AMPs would be comparable to ASPs, it was necessary to convert
                          the AMPs for each NDC in each quarter so that they represented the
                          total amount of the drug contained in that NDC.

                          To calculate “converted AMPs” for the NDCs included in each of our
                          quarterly reports, we multiplied the AMP by the total amount of the
                          drug contained in each NDC, as identified by sources, such as the CMS
                          crosswalk file, manufacturer Web sites, the “Red Book,” and the Food
                          and Drug Administration’s NDC directory.

                          For some NDCs, we could not successfully identify the amount of the
                          drug reflected by the ASP and therefore could not calculate a converted
                          AMP. The extent to which NDCs with problematic AMP conversions
                          affected our analysis differed depending on whether the associated
                          HCPCS code had complete AMP data or partial AMP data.




                          26 We excluded NDCs without AMPs when calculating volume-weighted AMPs for HCPCS
                          codes with partial AMP data; however, the corresponding ASPs were not excluded from the
                          volume-weighted ASPs as determined by CMS. Volume-weighted ASPs remained the same,
                          regardless of the availability of AMP data.



OEI-03-09-00350           COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                        21
    A P P         E N D I X     ~           C


                         HCPCS codes with complete AMP data. If a HCPCS code with complete
                         AMP data had one or more NDCs with a problematic AMP conversion,
                         we automatically excluded that HCPCS code from our pricing
                         comparison for the quarter.

                         HCPCS codes with partial AMP data. If a HCPCS code with partial AMP
                         data had one or more NDCs with a problematic AMP conversion, we did
                         not automatically exclude that HCPCS code from our pricing
                         comparison. Rather, we removed only the NDCs with problematic AMP
                         conversions. However, if all of the NDCs associated with the HCPCS
                         code had problematic AMP conversions, then we dropped the HCPCS
                         code from that quarter’s analysis.
                         Calculating Volume-Weighted Average Manufacturer Prices
                         Using the remaining NDCs with successful AMP conversions, we then
                         calculated a volume-weighted AMP for each of the corresponding
                         HCPCS codes, consistent with the revised methodology for calculating
                         volume-weighted ASPs.




OEI-03-09-00350          COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008      22
          A P P E N D I X                               ~       D

                  Detailed Methodology for Estimating Savings for Drug Codes That Met the
                  5-Percent Threshold in 2008
                          If the average sales price (ASP) for a Healthcare Common Procedure
                          Coding System (HCPCS) code exceeded the average manufacturer price
                          (AMP) by at least 5 percent in any quarter of 2008, we estimated the
                          savings associated with lowering reimbursement for that code to
                          103 percent of the AMP.

                          There is a two-quarter lag between the sales period for which ASPs are
                          reported and the effective date of the reimbursement amounts. As a
                          result of this lag period, estimated savings for HCPCS codes that met
                          the 5-percent threshold during the first through fourth quarters of 2008
                          were applied to the third quarter of 2008 through the second quarter of
                          2009, respectively. We estimated savings only for the time period(s)
                          during which a HCPCS code met the 5-percent threshold.

                          For each of the HCPCS codes that met the 5-percent threshold in a
                          given quarter of 2008, we calculated 103 percent of the volume-weighted
                          AMP and subtracted this amount from the reimbursement amount for
                          the HCPCS code, which is equal to 106 percent of the volume-weighted
                          ASP. To estimate the financial effect of lowering reimbursement for the
                          applicable quarter, we then multiplied the difference by one-fourth of
                          the number of services that were allowed by Medicare for each HCPCS
                          code in 2008, as reported in CMS’s Part B Analytics and Reports
                          (PBAR). 27 This estimate assumes that the number of services that were
                          allowed by Medicare in 2008 remained consistent from one quarter to
                          the next and that there were no significant changes in utilization
                          between 2008 and 2009.




                          27 The PBAR data for 2008 were downloaded on July 8, 2009.




OEI-03-09-00350           COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008        23
 
          AA PP PP EE NN DD I I XX                       ~~      EE

                  Eighty Drug Codes With Average Sales Prices That Exceeded Average
                  Manufacturer Prices by at Least 5 Percent in 2008
                                               Quarter(s) in Which the Codes Met the 5-Percent Threshold

                   Drug                             First                  Second               Third                  Fourth
                   Code                           Quarter                  Quarter            Quarter                 Quarter
                   J1364                      X                        X                  X                       X
                   Q0169                      X                        X                  X                       X
                   J0560                     X*                        X*                 X*                     X*
                   J1190                     X*                        X*                 X*                     X*
                   J2310                     X*                        X*                 X*                     X*
                   J9260                     X*                        X                  X*
                   J0670                     X*                        X*                 X*
                   J2690                      X                        X                                          X
                   J2760                      X                        X                                          X
                   J2792                      X                                           X                       X
                   J0170                     X*                                           X*                     X*
                   J8515                                               X                  X                       X
                   J9225                                               X                  X                       X
                   J1642                                               X*                 X*                     X*
                   J9185                                               X*                 X*                      X
                   J2700                      X                        X*
                   J9250                     X*                        X
                   J1626                     X*                        X*
                   J9000                     X*                        X*
                   J1020                      X                                           X
                   J0278                      X                                           X*
                   J9060                     X*                                           X*
                   J9062                     X*                                           X*
                   J7506                                               X*                 X*
                   J9040                                               X*                 X
                   J9370                                               X*                 X
                   J9375                                               X*                 X
                   J9380                                               X*                 X
                   J9340                                               X                                          X
                   J2765                                                                  X                       X
                   Q0179                                                                  X*                     X*
                   Q9965                                                                  X*                     X*
                   Q9966                                                                  X*                     X*
                   J0300                      X
                   J1457                      X
                                                                                                        continued on next page

OEI-03-09-00350            COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                                          24
    A P P         E N D I X        ~           E


                   Eighty Drug Codes With Average Sales Prices That Exceeded Average
                   Manufacturer Prices by at Least 5 Percent in 2008
                                                Quarter(s) in Which the Codes Met the 5-Percent Threshold

                    Drug                             First                 Second                Third               Fourth
                    Code                           Quarter                 Quarter             Quarter              Quarter
                    J1955                      X
                    J3315                      X
                    J7310                      X
                    J9202                      X
                    J9320                      X
                    Q0166                      X
                    J0610                     X*
                    J1631                     X*
                    J1940                     X*
                    J2430                     X*
                    J2680                     X*
                    J2790                     X*
                    J3370                     X*
                    J3410                     X*
                    J3475                     X*
                    J9027                     X*
                    J9181                     X*
                    J9182                     X*
                    J9293                     X*
                    Q0164                     X*
                    Q0168                                              X
                    90376                                              X*
                    J0500                                              X*
                    J7509                                              X*
                    J9130                                              X*
                    J9150                                              X*
                    Q0175                                              X*
                    Q0176                                              X*
                    J0330                                                                  X
                    J0720                                                                  X
                    J7500                                                                  X
                    J7631                                                                  X
                    J0640                                                                  X*
                    J3250                                                                  X*
                    J7612                                                                  X*
                                                                                                         continued on next page

OEI-03-09-00350             COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                                          25
    A P P         E N D I X             ~         E


                   Eighty Drug Codes With Average Sales Prices That Exceeded Average
                   Manufacturer Prices by at Least 5 Percent in 2008
                                                   Quarter(s) in Which the Codes Met the 5-Percent Threshold

                    Drug                                First               Second               Third                      Fourth
                    Code                              Quarter               Quarter            Quarter                     Quarter
                    J7614                                                                     X*
                    J9045                                                                     X*
                    J9390                                                                     X*
                    J0475                                                                                              X
                    J2597                                                                                              X
                    J2820                                                                                              X
                    J7501                                                                                              X
                    J7611                                                                                          X*
                    J7644                                                                                          X*
                    Q9967                                                                                          X*
                   * These codes met the 5-percent threshold during the specified quarter based on partial AMP data.
                   Source: Office of Inspector General’s analysis of ASP and AMP data from 2008.




OEI-03-09-00350                COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008                                          26
                A P PEN D                            x                F

                                                         Agency Comments


         +.~....~
       {,:~ DEPARTMENT
             	         OF HEALm .. HUMAN SERVICES                                                  Centers for Medicare & Medicaid Services


                                                                                                  Administrator
                                                                                                  Washington. DC 20201




                        DATE:               DEC 1 1 2.00~
                        TO: 	         Daniel R. Levinson 

                                      Inspector General 


                        FROM: 	       Charlene Frizzera 
 /S/
                                      Acting Administrator 


                        SUBJECT: 	 Office of Inspector General's Draft Report: "Comparison of Average Sales Prices
                                   and Average Manufacturer Prices: An Overview of2008" (OEI-03-09-00350)

                        The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                        comment on the Office of Inspector General's (OIG) draft report entitled, "Comparison of
                        Average Sales Prices and Average Manufacturer Prices: An Overview of2008." We appreciate
                        the OIG's continuing efforts to examine payment made under the Average Sales Price (ASP)
                        methodology. The OIG report presents finqings from a comparison of Medicare payment
                        amounts to an OIG-calculated Average Manufacturer Price (AMP) payment amount for certain
                        drugs throughout 2008.

                        The OIG is completing this report pursuant to Section 1847A(d) of the Social Security Act (the
                        Act), which requires a comparison of ASP to AMP and (if any) Widely Available Market Price
                        (W AMP) to determine whether ASP exceeds AMP by more than a specified threshold
                        percentage, currently set at 5 percent.

                        A basic analysis oftheOIG's findings is useful when considering the potential program
                        implications. Reviewing the data contained in the OIG report, we note the following:

                           • 	 Of the 80 Healthcare Common Procedure Coding System (HCPCS) codes for which ASP
                               exceeded AMP by the 5 percent threshold in 2008:
                                   o 	 5 codes (6 percent) exceeded the threshold in all four quarters;
                                   o 	 10 (13 percent) codes exceeded the threshold in three of the four quarters;
                                   o 	 18 (23 percent) codes exceeded the threshold in two of the four quarters; and,
                                   o 	 47 (59 percent) codes exceeded the threshold in one ofthe four quarters.
                           • Of the 33 codes that exceeded the 5 percent threshold for two or more quarters in 2008:
                                   o 	 None had total allowed charges greater than $16 million;
                                   o 	 None are among the top 50 Part B paid physician-administered drugs, as
                                       determined by 2008 Medicare allowed charges;
                                   o 	 Total spending on these 33 HCPC'S codes was slightly more than $70 million, or
                                       about 7 percent of al\ Part B physician-administered drug spending.




o E1-03 -09·0 0 3 5 0                 COMPARISON OF ASPs AND AMPs: AN OVERVIEW OF 2008                                                        27
    A P P         E N D I X     ~           F




OEI-03-09-00350          COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008   28
    A P P         E N D I X     ~           F




OEI-03-09-00350          COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008   29
          A C K N O W L E D G M E N T S

                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and David E. Tawes, Director of the Medicare and
                   Medicaid Prescription Drug Unit.

                   Lauren McNulty served as the team leader for this study. Central office
                   staff who contributed to this report include Kevin Manley and Natasha
                   Franklin.




OEI-03-09-00350    COMPARISON   OF   ASPS   AND   AMPS: AN OVERVIEW   OF   2008       30
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
